No.
IN THE
SUPREME COURT OF THE UNITED STATES
Susan Lloyd, Petitioner
V
Joshua Thornsbery, etal, Respondents
PROOF OF SERVICE
I, Susan Lloyd, do swear or declare that on this date
as required by Supreme Court Rule 2 9 that I have served the
enclosed Motion for Leave to Proceed in Forma Pauperis and
Petition for a Writ of Certiorari on each party to the above
proceeding or that

partys counsel and on every person required

to be served by depositing an envelope containing the above
documents in the US mail properly addressed to each of them and
with first class postage prepaid or by delivery to a third party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
1.Jason Whitacre
214 S Water St PO Box 762
Kent, OH 44240
2. Mark Hanna
PO Box 10395
Pittsburgh, PA

15234

UV

3. Lindsay Molnar
Perduk Law Firm
3603 Darrow Rd
Stow, OH 44224

4. Timothy Hart
6339 Morgan Rd
Ravenna, OH 44266
5. William Taylor, Pro Se Defendant
2122 Gates Ave
Streetsboro, OH 44241
6. Daniel Bennett, Pro Se Defendant
119 Ebersole Rd
Fredericktown, OH 43019
7. Amanda Shuherk, Pro Se Defendant
08577 County Rd C
Bryan OH 43506
8.' Robin White aka Harley Angel
10254 Brosius Rd
Garretsville, OH 44231
9. Sue Whitlam, Pro Se Defendant

u\>

466 Brentwood Ave
Kent, OH 44240
10. Frank Chlad
10122 William Henry Dr
Streetsboro, OH 44241
11.Sebastian Dzialuk
7085 Seven Hills Blvd
Seven Hills, OH 44131
12.Justin Smialek
4516 Rootstown Rd
Ravenna, OH 44266

I declare under penalty of perjury that the foregoing is true
and correct.
Executed on

Wii
T
Susan Lloyd

